No. 19-_______
IN THE
SUPREME COURT OF THE UNITED STATES
DONNIE CLEVELAND LANCE,
Petitioner,
-v.STATE OF GEORGIA,
Respondent.
______________________________________________________________
On Petition for Writ of Certiorari
To The Supreme Court of Georgia
______________________________________________________________
MOTION FOR A STAY OF EXECUTION
PENDING CONSIDERATION OF PETITION
FOR WRIT OF CERTIORARI TO THE
GEORGIA SUPREME COURT
______________________________________________________________
CAPITAL CASE:
EXECUTION SCHEDULED JANUARY 29, 2020, 7:00 PM
TO:

THE HONORABLE CLARENCE THOMAS, ASSOCIATE JUSTICE,
SUPREME COURT OF THE UNITED STATES
Petitioner Donnie Cleveland Lance, a death-sentenced prisoner in the State

of Georgia, requests that this Court stay his execution, currently scheduled for 7:00
p.m. Wednesday, January 29, 2020, until further Order of this Court, in order to
permit the consideration and disposition of this petition.
1

PROPOSED QUESTIONS PRESENTED
1. Was petitioner denied due process and equal protection under the
Fourteenth Amendment by the state courts’ imposition of extrastatutory requirements that petitioner present “convincing and detailed
evidence of his innocence” and demonstrate “due diligence” before
obtaining DNA testing critical to determining whether Petitioner is
innocent.
2. Did the Georgia court violate petitioner’s rights under the Eighth
and Fourteenth Amendments by evaluating the impact of favorable
DNA results by reference only to a reading of the evidence actually
presented at the trial favorable to the State rather than by reviewing
the entire record, including the habeas record, in an objective manner
and by requiring that the evidence would result in acquittal as opposed
to considering broader sentencing implications?
JURISDICTION
Mr. Lance invokes this Court's jurisdiction to stay his execution under 28
U.S.C. § 1257 and Rule 23 of the Rules of the Supreme Court of the United States,
pending the filing and disposition of a petition for writ of certiorari to the Supreme
Court of Georgia.
PROCEDURAL HISTORY
Petitioner was convicted of murder and sentenced to death in the Superior
Court of Jackson County, Georgia on June 23, 1999. The Georgia Supreme Court
affirmed Mr. Lance’s convictions and sentences of death on February 25, 2002.
Lance v. State, 560 S.E.2d 663 (Ga. 2002). A timely filed petition for writ of
certiorari was denied on December 2, 2002 in this Court. Lance v. Georgia, 537 U.S.
1050 (2002). Rehearing was denied on January 27, 2003. Lance v. Georgia, 537
U.S. 1179 (2003).
2

On May 15, 2003, the Superior Court of Jackson County signed an order
setting Mr. Lance’s execution date for the week beginning at noon on June 2, 2003
and ending at noon on June 9, 2003. Mr. Lance filed a skeletal petition for writ of
habeas corpus and a Motion for Stay of Execution in Butts County on May 29, 2003,
and an order staying the execution was entered on that date. Mr. Lance’s Amended
Habeas Petition was filed on August 25, 2005. After a four-day evidentiary hearing,
the Superior Court of Butts County granted Mr. Lance’s habeas petition with
respect to sentencing phase, and denied the petition with respect to guilt phase.
Lance v. Hall, No. 2003-V-490, slip op. at 58 (Super. Ct. Butts Cty. Apr. 28, 2009).
The State appealed the order to the Georgia Supreme Court, and Mr. Lance filed a
cross appeal. The Georgia Supreme Court reversed the grant of relief from the
habeas court. Hall v. Lance, 687 S.E.2d 809, 812 (Ga. 2010). This Court denied
certiorari on June 28, 2010, and denied a petition for rehearing on September 3,
2010. Lance v. Hall, 561 U.S. 1026 (2010).
Mr. Lance filed a federal petition for a writ of habeas corpus on July 29, 2010,
which was denied by the United States District Court for the Northern District of
Georgia in an unpublished opinion on December 22, 2015. Lance v. Upton, Case.
No. 2:10-CV000143-WBH (N.D. Ga. 2015). The Eleventh Circuit Court of Appeals
affirmed the district court’s ruling on August 31, 2017. Lance v. Warden, 706 F.
App’x 565 (11th Cir. 2017). On January 7, 2019, this Court declined to hear Mr.
Lance’s case over the dissent of three justices. Lance v. Sellers, 139 S. Ct. 511
(2019) (Sotomayor, Ginsburg & Kagan, JJ., dissenting).

3

On April 26, 2019, Mr. Lance filed an extraordinary motion for new trial and
for post-conviction testing in the Superior Court of Jackson County. An evidentiary
hearing was held on July 31, 2019. The Superior Court denied the Motion on
September 30, 2019, and an Application to Appeal the Denial of the motion was
filed with the Georgia Supreme Court on October 30, 2019. The Georgia Supreme
Court denied the Application on December 2, 2019. A timely filed Motion for
Reconsideration was denied on January 13, 2020.
The Department of Corrections has scheduled Petitioner’s execution for 7:00
p.m., Wednesday, January 29, 2020.
REASONS FOR GRANTING A STAY
In order to receive a stay of execution, a petitioner must show: 1) irreparable
injury if no stay is granted; 2) a “reasonable probability that four (4) members of the
Court will consider the issue [presented] sufficiently meritorious to grant
certiorari,” Graves v. Burnes, 405 U.S. 1201 (1972) (Powell, Circuit Justice), or a
reasonable probability that a plurality of the Court would grant relief on an original
habeas petition; and 3) a likelihood of success on the merits. See Barefoot v. Estelle,
463 U.S. 880, 893 (1983); see also Fare v. Michael C., 439 U.S. 1310 (1978)
(REHNQUIST, Circuit Justice). Mr. Lance respectfully submits that he meets this
standard.
A.

Irreparable Injury

If this Court does not grant a stay, Mr. Lance will be executed at 7:00 p.m. on
January 29, 2020. This clearly constitutes irreparable injury. See, e.g., Evans v.

4

Bennett, 440 U.S. 1301, 1306 (1979) (REHNQUIST, Circuit Justice (granting a stay of
execution and noting the “obvious irreversible nature of the death penalty”);
O’Bryan v. Estelle, 691 F.2d 706, 708 (5th Cir. 1982) (the “irreversible nature of the
death penalty” constitutes irreparable injury and weighs heavily in favor of
granting a stay).
Further, Mr. Lance’s claims address whether the Georgia courts violated his
Eighth and Fourteenth Amendments rights. The potential injury is not only his
death, but denial of his liberty interest in demonstrating his actual innocence
through unfair procedures created by the State of Georgia. Given these facts and
concerns, a stay of execution will not prejudice the State.
B.

Probability That The Court Will Grant The Writ, and
Likelihood of Success

The facts in Mr. Lance’s case present troubling and substantial constitutional
issues. There is a reasonable likelihood that this Court would grant certiorari, and
that he would ultimately prevail on the merits of his claim.
In his petition for a writ of certiorari, Mr. Lance has effectively challenged
the lack of process and other constitutional infirmities in the Georgia court’s
procedure for determining when forensic DNA testing of critical, heretofore
untested evidence is permitted, as set forth in greater detail in Mr. Lance’s Petition
for Writ of Certiorari. The Georgia courts’ actions denied petitioner the due process
right to DNA testing to establish his innocence and violated his right to equal
protection of the law. The precluded DNA testing could exonerate Mr. Lance,
prohibiting both his imprisonment and imminent execution. If “the petition
5

demonstrates a likelihood of success in at least some respects,” a court should grant
a stay. Bundy v. Wainwright, 808 F.2d 1410, 1421 (11th Cir. 1987). Mr. Lance’s
case involves issues that “are debatable among jurists of reason”; which “a court
could resolve in a different manner]”; and which involve “questions [that] are
‘adequate to deserve encouragement to proceed further.’” Barefoot v. Estelle, 463
U.S. 880, 893 n. 4. (1983) (citations omitted).
CONCLUSION
Wherefore, Mr. Lance respectfully requests an Order staying his execution
pending consideration of his petition for writ of certiorari to the Supreme Court of
Georgia.
Respectfully submitted this, the 23rd day of January, 2020.

/s/ Mary E. Wells
Counsel for Petitioner

6

CERTIFICATE OF SERVICE
I hereby certify that on January 23rd, 2020, a true and correct copy of the
foregoing Motion For A Stay Of Execution Pending Consideration Of Petition For
Writ Of Certiorari To The Georgia Supreme Court was served electronically via
ECF upon Respondent’s counsel as follows:
Beth Burton
Senior Assistant Attorney General
Office of Attorney General
132 State Judicial Building
40 Capitol Square, S.W.
Atlanta, Georgia 30334
bburton@law.ga.gov
J. Bradley Smith
Piedmont Judicial Circuit
District Attorney’s office
5000 Jackson Parkway Suite 160
Jefferson, Georgia 30549
bsmith@barrowga.org
Christopher M. Carr
Department of Law
40 Capital Square, S.W.
Atlanta, Georgia 30334
Dated: This, the 23rd day of January, 2020.
/s/ Mary E. Wells
Counsel for Petitioner

7

